<html>
<title> - AVIATION AND THE ENVIRONMENT: EMMISSIONS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                            AVIATION AND THE
                        ENVIRONMENT: EMMISSIONS

=======================================================================

                               (110-125)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 6, 2008

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure




                   U.S. GOVERNMENT PRINTING OFFICE
42-305 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ACURI, New York           CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin               ROBERT E. LATTA, Ohio
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey

                                  (ii)

  


                        Subcommittee on Aviation

                 JERRY F. COSTELLO, Illinois, Chairman

BOB FILNER, California               THOMAS E. PETRI, Wisconsin
LEONARD L. BOSWELL, Iowa             HOWARD COBLE, North Carolina
RICK LARSEN, Washington              JOHN J. DUNCAN, Jr., Tennessee
RUSS CARNAHAN, Missouri              VERNON J. EHLERS, Michigan
JOHN T. SALAZAR, Colorado            STEVEN C. LaTOURETTE, Ohio
DANIEL LIPINSKI, Illinois            FRANK A. LoBIONDO, New Jersey
NICK LAMPSON, Texas                  JERRY MORAN, Kansas
ZACHARY T. SPACE, Ohio               ROBIN HAYES, North Carolina
BRUCE L. BRALEY, Iowa                SAM GRAVES, Missouri
HARRY E. MITCHELL, Arizona           JOHN BOOZMAN, Arkansas
JOHN J. HALL, New York, Vice Chair   SHELLEY MOORE CAPITO, West 
STEVE KAGEN, Wisconsin               Virginia
STEVE COHEN, Tennessee               JIM GERLACH, Pennsylvania
NICK J. RAHALL, II, West Virginia    MARIO DIAZ-BALART, Florida
PETER A. DeFAZIO, Oregon             CHARLES W. DENT, Pennsylvania
ELEANOR HOLMES NORTON, District of   TED POE, Texas
Columbia                             DAVID G. REICHERT, Washington
CORRINE BROWN, Florida               CONNIE MACK, Florida
EDDIE BERNICE JOHNSON, Texas         JOHN R. `RANDY' KUHL, Jr., New 
ELLEN O. TAUSCHER, California        York
TIM HOLDEN, Pennsylvania             LYNN A WESTMORELAND, Georgia
MICHAEL E. CAPUANO, Massachusetts    MARY FALLIN, Oklahoma
DORIS O. MATSUI, California          VERN BUCHANAN, Florida
MAZIE K. HIRONO, Hawaii              JOHN L. MICA, Florida
LAURA A. RICHARDSON, California        (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Altman, Richard, Executive Director, Commercial Aviation 
  Alternative Fuels Initiative...................................    16
Coyne, Hon. James, President, National Air Transportation 
  Association, Former Member of Congress.........................    16
Dillingham, Dr. Gerald, Director, Physical Infrastructure Issues, 
  U.S. Government Accountability Office..........................     5
Elwell, Daniel K., Assistant Administrator, Aviation Policy, 
  Planning and Environment, Federal Aviation Administration......     5
Fahey, Dr. David W., Research Physicist, National Oceanic and 
  Atmospheric Administration.....................................     5
Glover, Bill, Managing Director, Environmental Strategy, the 
  Boeing Company.................................................    16
Lavin, Douglas, Regional Vice President, North America 
  International Air Transport Association........................    16
May, James C., President and CEO, Air Transport Association......    16
Reis, Mark, Managing Director, Seattle Tacoma International 
  Airport........................................................    16
Schaffer, Mary Ann, Air Line Pilots Association..................    16

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    28
Costello, Hon. Jerry F., of Illinois.............................    29
Johnson, Hon. Eddie Bernice, of Texas............................    36
Mitchell, Hon. Harry E., of Arizona..............................    42
Oberstar, Hon. James L., of Minnesota............................    43

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Altman, Richard L................................................    45
Coyne, James K...................................................    56
Dillingham, Gerald L.............................................    86
Elwell, Daniel K.................................................   119
Fahey, David W...................................................   143
Glover, Bill.....................................................   152
Lavin, Douglas E.................................................   161
May, James C.....................................................   167
Reis, Mark M.....................................................   187
Schaffer, Mary Ann...............................................   198

                       SUBMISSIONS FOR THE RECORD

Elwell, Daniel K., Assistant Administrator, Aviation Policy, 
  Planning and Environment, Federal Aviation Administration, 
  responses to questions from the Subcommittee...................   138
Glover, Bill, Managing Director, Environmental Strategy, the 
  Boeing Company, responses to questions from the Subcommittee...   157
May, James C., President and CEO, Air Transport Association, 
  responses to questions from the Subcommittee...................   182

[GRAPHIC] [TIFF OMITTED] T2305.001

[GRAPHIC] [TIFF OMITTED] T2305.002

[GRAPHIC] [TIFF OMITTED] T2305.003

[GRAPHIC] [TIFF OMITTED] T2305.004

[GRAPHIC] [TIFF OMITTED] T2305.005

[GRAPHIC] [TIFF OMITTED] T2305.006

[GRAPHIC] [TIFF OMITTED] T2305.007

[GRAPHIC] [TIFF OMITTED] T2305.008



           HEARING ON AVIATION AND THE ENVIRONMENT: EMISSIONS

                              ----------                              


                          Tuesday, May 6, 2008

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                  Subcommittee on Aviation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:30 p.m., in 
Room 2167, Rayburn House Office Building, Hon. Jerry F. 
Costello [chairman of the Subcommittee] Presiding. 
    Mr. Costello. The Subcommittee will come to order.
    The Chair will ask all Members and staff and everyone to 
turn electronic devices off or on vibrate.
    The Subcommittee is meeting today to hear testimony on 
aviation and on the environment emissions. Today, after the 
first panel, the Aviation Subcommittee will recess while we 
hear a briefing from Ambassador John Bruton. The briefing is 
open to the public, and Members can ask questions. After the 
ambassador's briefing, we will then reconvene the hearing and 
will hear from the second panel. I will give a brief opening 
statement. Then I will call on the Ranking Member, Mr. Petri, 
for any statement that he may have, and then we will recognize 
our witnesses.
    I welcome everyone to the Subcommittee hearing today on 
aviation and the environment, in particular, emissions. 
Globally, commercial aviation accounts for about 3 percent of 
emissions, and with 1 billion passengers expected to fly in the 
United States by 2016, we need to responsibly manage aircraft 
emissions. Here at home and across the globe, more is being 
done to reduce energy consumption and emissions. Airlines, 
airports, manufacturers, and the Air Force are at the forefront 
of developing better planes, technology and operating 
procedures to conserve fuel and to reduce emissions.
    They are an example of how improvements are driven by 
necessity as fuel costs are the largest single expenditure for 
the airlines, accounting for about 40 percent or more of their 
total expenditures. In the last month, fuel has greatly 
affected the aviation industry, causing four carriers to file 
bankruptcy and other carriers to reduce capacity. Every penny 
increase in the price of jet fuel results in an additional $195 
million in annual fuel costs for the U.S. airline industry.
    To combat this, aircraft fuel efficiency has improved by 
almost 31 percent since 1990. On April 22nd, 2008, the ATA 
committed to work towards an additional 30 percent fuel 
efficiency improvements by the year 2025. Research also 
continues in engine efficiency, airframe aerodynamics and in 
the use of lighter materials like the composites currently 
being used by Boeing on the 787. The implementation of NextGen 
will also have a positive impact on the environment, including 
fuel-efficient operation procedures, the introduction of new 
airframe and engine technologies and in developing alternative 
fuels.
    This is another reason why we need to move forward on 
modernizing our air traffic control system and in continuing to 
urge the FAA to produce and meet its timelines for modernizing 
our system.
    I am pleased to see that Boeing completed its first 
biofuels flight with Virgin Atlantic early this year and that 
it is working on fuel cells for future aircraft. I am also 
interested in hearing more about coal to liquids--CTL--coal to 
liquids technology and the benefits that it may bring to this 
discussion. I have been a long supporter of clean coal 
technologies. The United States has at least a 250-year supply 
of coal. Given that CTL fuels can be used in existing planes 
and engines and that they can help reduce our reliance on 
foreign sources of oil, I believe that CTL production should be 
pursued.
    Further, airports are facing a significant challenge to 
increase capacity while also managing the environmental impacts 
on local communities. Many airports are putting resources into 
infrastructure for natural gas, solar, electric, biofuels, and 
propane refueling stations that benefit the airports and many 
public users such as commercial vans, courtesy shuttles and 
taxis.
    I am interested in hearing more from SeaTac on its 
recycling program and on its greenhouse gas emissions 
inventory. Under H.R. 2881, the FAA Reauthorization Act of 
2007, which passed the House on September 20th of last year, we 
provided historic levels of funding to upgrade our air traffic 
control system, to improve efficiency and to invest in aviation 
research. Other programs to reduce our carbon footprint in H.R. 
2881 include the Clean Engine and Airframe Technology 
Partnership and the Green Towers Program, which was modeled 
after what is currently being done at O'Hare International 
Airport in Chicago. We continue to wait on our friends in the 
other body, in the Senate, to act on legislation to reauthorize 
the FAA so that we can move forward to going into conference 
and in producing a bill that can be sent to the White House.
    Finally, the European Union has proposed an emissions 
trading scheme to reduce emissions. Due to the global nature of 
aviation, I strongly believe that any effort to reduce 
emissions should be done by consensus through ICAO and must 
maintain economic growth while we are reducing emissions.
    I, again, welcome all of our witnesses today. I look 
forward to hearing your testimony.
    Before I recognize the Ranking Member, Mr. Petri, for his 
opening statement or remarks, I ask unanimous consent to allow 
2 weeks for all Members to revise and extend their remarks and 
to submit any additional statements and materials for the 
record. Without objection, so ordered.
    At this time, the Chair recognizes the Ranking Member, Mr. 
Petri.
    Mr. Petri. Thank you very much, Mr. Chairman, and thank you 
for calling this timely and important hearing today.
    As you pointed out, aviation is essential to the healthy 
economy and the free flow of travel and commerce worldwide, but 
as we all know, airplanes are currently solely dependent on 
petroleum-based fuels that emit greenhouse gasses. According to 
the FAA, the transportation sector is responsible for about 
one-quarter of greenhouse gas emissions, but to put things into 
perspective, aviation is responsible for only 3 percent of U.S. 
greenhouse gas emissions.
    Historically, the aviation industry has taken a leading 
role in the effort to reduce emissions. Emissions are directly 
tied to fuel consumption. With the soaring cost of jet fuel, 
airlines and operators have a clear incentive to reduce the 
fuel burden. Significant and environmental benefits have come 
along with the business incentive to conserve fuel.
    Multi-billion dollar research and development investments 
by industry are yielding more efficient, quieter engines as 
well as lighter, more aerodynamic frames.
    It is my understanding that for aircraft of the 70- to 150-
passenger size, Pratt and Whitney's newly developed, geared 
thermal fan engine will increase aircraft fuel efficiency of 
upwards of 12 percent. Boeing's groundbreaking new 787 
Dreamliner design will require 20 percent less fuel, will be 60 
percent quieter and will produce 28 percent less noxious oxide 
emissions than the plane it replaces. I think, on a per-
passenger basis, this is about as fuel efficient as a mini 
automobile on a per mile basis.
    Realizing that aviation, like all other industries, is a 
contributor to greenhouse gas emissions, it is important to 
note that in the last 35 years the U.S. air transportation 
system has experienced a six-fold increase in mobility. 
However, even with that growth in travel, aviation fuel 
efficiency has seen a 60 percent improvement.
    Aviation emissions have been and remain a controversial 
issue. Aviation's contribution to greenhouse gas emissions has 
recently received growing attention in our country and even 
greater attention overseas.
    The European Commission has proposed to regulate aircraft 
emissions in a proposal to add the aviation industry to the 
European Union's emissions trading scheme. Some have raised the 
concern that the proposal violates several bilateral 
agreements, including the recently signed U.S.-EU Open Skies 
agreement. There are also concerns that it ignores recognized 
international civil aviation laws.
    While the second phase of the EU's emission trading scheme 
is a vast improvement over the first phase, it is important 
that proposals to regulate aircraft emissions not unfairly 
burden an industry that has done so much to reduce its impact 
on the environment, an industry that we rely on to bring 
together the world community.
    In the U.S., the FAA and this Committee have undertaken 
several initiatives to address the impact aviation has on the 
environment. For instance, in this Committee's current FAA 
reauthorization proposal that passed the House last September, 
we included no less than eleven programs to lower aviation's 
impact on the environment.
    In coordination with the airline industry's emission 
reduction efforts, the voluntary airport low-emission and 
continuous low-energy emissions and noise programs have proven 
themselves successful. It is reauthorized in the House FAA 
reauthorization proposal. We are committed to continue to 
advance these programs going forward.
    Government has also had a responsibility to continue to 
invest in fundamental aviation research and development. In 
fact, for budget year 2009, the FAA plans to invest more than 
$336 million in research and development.
    According to U.S. Government sources, the number of 
commercial air carriers has doubled since the late 1970s. The 
number of U.S.-scheduled passenger enplanements has jumped by 
about 175 percent. Domestic enplanements are projected to grow 
to over 1 billion by 2016.
    As aviation grows, it is critical that it continues to do 
so in an environmentally responsible manner.
    The aviation industry has proven that lessening aviation's 
impact on the environment can be achieved without strict 
government regulations. As scrutiny over the aviation industry 
is on the rise around the world, we must be sure not to hamper 
productive efforts that have proven effective at reducing 
emissions. We must also continue our work on developing 
cleaner-burning, alternative jet fuels.
    Clearly, aviation emissions is a complicated issue, 
requiring a complex and multi-faceted approach, utilizing the 
expertise and knowledge of the FAA, NASA and of the aviation 
industry.
    In conclusion, I would like to thank all of our witnesses 
and Ambassador Bruton for coming, and I look forward to your 
testimony and to the discussion this afternoon.
    Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks the Ranking Member.
    Before I recognize Members for statements, opening 
statements or for comments, I want to make sure that Members 
and everyone are mindful that we are going to have a number of 
procedural votes on the floor, and we do have nine witnesses 
who will be testifying at this hearing today.
    So, with that, the Chair will now recognize the gentlelady 
from Texas, Ms. Johnson.
    Ms. Johnson. Mr. Chairman, thank you very much.
    I will just ask unanimous consent to file my statement to 
save some time. Thank you.
    Mr. Costello. The Chair thanks the gentlelady and now 
recognizes the gentleman from New York, Mr. Hall.
    Mr. Hall. Mr. Chairman, I will follow the gentlelady's 
example and ask that my statement be entered in the record.
    I yield back.
    Mr. Costello. The Chair thanks the gentleman.
    Does any other Member wish to make a statement or a 
comment?
    If not, the Chair at this time will introduce our first 
panel of witnesses: Mr. David Fahey, who is a Research 
Physicist with NOAA; Mr. Daniel Elwell, who is the Assistant 
Administrator over at the FAA for Aviation Policy Planning and 
the Environment; and Dr. Gerald Dillingham, who is the Director 
of Physical Infrastructure Issues with the U.S. Government 
Accountability Office. Mr. Dillingham has testified here many 
times before.
    So we welcome all of you. The Chair will recognize you, Dr. 
Fahey, for your opening comments and for your testimony.
    We would remind the witnesses that you will be recognized 
for 5 minutes. Your entire statements will be entered into the 
record, and then, of course, Members will have questions after 
the three of you present your testimony.
    With that, Dr. Fahey.

 TESTIMONY OF DR. DAVID W. FAHEY, RESEARCH PHYSICIST, NATIONAL 
   OCEANIC AND ATMOSPHERIC ADMINISTRATION; DANIEL K. ELWELL, 
    ASSISTANT ADMINISTRATOR, AVIATION POLICY, PLANNING AND 
 ENVIRONMENT, FEDERAL AVIATION ADMINISTRATION; AND DR. GERALD 
  DILLINGHAM, DIRECTOR, PHYSICAL INFRASTRUCTURE ISSUES, U.S. 
                GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Fahey. Good afternoon, Mr. Chairman and Members of the 
Committee.
    I am Dr. David Fahey, a Research Physicist with NOAA, the 
National Oceanic and Atmospheric Administration. Thank you for 
inviting me to be a witness at this hearing.
    I have spent my career studying the atmosphere, with 
particular emphasis on ozone depletion and climate change, and 
have been involved with aviation issues in a number of research 
studies and policy-relevant scientific assessments.
    My written testimony addresses the basic aspects by which 
global aviation affects climate and discusses key uncertainties 
and knowledge gaps and the understanding of those effects. The 
results in my testimony are derived from the scientific 
assessments of the Intergovernmental Panel on Climate Change, 
or "IPCC" as it is commonly known. The IPCC completed an 
aviation assessment in 1999 and partially updated it in 2007. 
Here, I will highlight several key points from my testimony.
    First, aviation is one of several human activities that 
contribute to climate change by altering the natural amounts of 
greenhouse gasses, small particles or cloudiness in the Earth's 
atmosphere. These activities create what scientists call 
"radiative forces" of climate which can be thought of as 
pushing the climate away from its current state. Scientists 
know that if it is pushed too hard the climate state will 
change, altering basic parameters such as temperature and 
precipitation.
    My next point is that there are three aspects of aviation 
operations which, when taken together, distinguish aviation 
from other human activities that contribute to climate change.
    The first of these is the aviation burns fossil fuels, 
releasing a variety of gases and particles into the atmosphere. 
A number of these emissions contribute to climate change.
    Secondly, most aviation emissions occur at aircraft cruise 
altitudes, well above the Earth's surface, which allows some of 
those emissions to have a greater effect in the atmosphere and 
on climate than they otherwise would if the emissions occurred 
near the Earth's surface.
    Thirdly, aviation operations often increase cloudiness 
along and near aircraft flight tracks. Aircraft contrails shown 
in my Figure 1, here displayed, are the most familiar form. 
This is actually a picture over Washington, D.C. This increase 
in cloudiness contributes to climate change.
    So, to recap, aviation has a unique role in climate change 
because it burns fossil fuels high in the atmosphere and 
increases cloudiness.
    My next point is that the aviation climate impact is a sum 
of several component effects. A summary is shown in my Chart 1 
where the unit of measure is radiative forcing. Current best 
estimate values are shown there as the bars for the emissions 
of carbon dioxide, nitrogen oxides, water vapor, sulfate, and 
soot particles and for cloudiness from contrails. This list 
reflects the complexity of the aviation climate impact. The 
total of these terms is positive, the bottom bar there, which 
means aviation leads to a warming of climate. For perspective, 
the aviation total is about 3 percent of the total climate 
forcing from all human activities.
    My fourth and final point is that uncertainties and 
knowledge gaps are associated with aviation's climate impact. 
Computer models of the atmosphere are required to quantify 
aviation effects because of the complexity of the processes 
involved. Model estimates are associated with varying 
uncertainties because our representation of atmospheric 
processes and models is incomplete.
    Concerning knowledge gaps, two are worth noting here; 
namely, the lack of best estimates for the impact of contrails 
as they spread out to form more extensive cirrus clouds and the 
potential role of aviation particles in modifying cloud 
formation.
    So, in summary, aviation emits gases and particles high in 
the atmosphere and increases cloudiness. The emissions and 
cloudiness cause radiative forcings which lead to climate 
change. Currently, the overall impact of aviation is a positive 
radiative forcing, which leads to a warming of climate. 
Uncertainties remain when it comes to quantifying the separate 
impact of various aviation emissions, and some gaps exist in 
our knowledge of key processes involving those effects.
    So thank you again, Mr. Chairman, for inviting me to 
testify. I am happy to answer any questions that you might 
have.
    Mr. Costello. Dr. Fahey, we thank you, and we will have 
some questions for you.
    The Chair now recognizes, under the 5-minute rule, Mr. 
Elwell.
    Mr. Elwell. Chairman Costello, Mr. Petri and Members of the 
Committee, thank you for the opportunity to testify today.
    Given the amount of misinformation circulating today about 
aviation emissions and climate change, I thought I might try to 
correct some misperceptions.
    Myth: Aviation is the fastest-growing source of greenhouse 
gas emissions. Fact: Aviation currently represents, as we have 
heard several times, less than 3 percent of greenhouse gas 
emissions worldwide. While that number may grow to 5 percent by 
2050, the largest aviation market in the world--the U.S.--is 
burning less fuel today than in 2000.
    Myth 2: Aviation emissions have four to five times the 
impact on climate change because of the altitude where they 
occur. Fact: There is nothing unique about emissions from 
aircraft engines. Just like your automobile, aircraft emissions 
are about 70 percent C02, 29 percent water and 1 percent other 
products, including NOx and particulate matter. It does not 
matter where CO2 is emitted. The climate impact of C02 is well-
understood, and it is the same at altitude as it is on the 
ground.
    As my colleague just said, our knowledge of the impacts 
from the other products is not very good, both as to intensity 
and, in some cases, even whether there is a net warming or 
cooling effect.
    Myth 3: Other forms of transport are out-performing 
aviation in fuel-efficiency improvement. Fact: the fuel 
efficiency of aircraft has improved by 70 percent in the last 
40 years. Even over the 20-year period, 1985 to 2005, 
improvements in U.S. aviation far outpaced the emission 
intensity improvements in other methods of transport, including 
automobiles, trains and rail.
    Myth 4: European aviation is doing better than U.S. 
aviation with respect to emissions performance. Fact: between 
1990 and 2005, the greenhouse gas emissions of commercial 
aviation in the European Union grew about three times as fast 
as those of the U.S. aviation sector. Further, since 2000, 
while EU aviation emissions rose over 30 percent, U.S. 
commercial aviation actually burned 4 percent less fuel even 
though it carried 12 percent more passengers and 22 percent 
more cargo.
    Myth 5: The U.S. opposes the use of market-based measures 
to address aviation emissions. Fact: During last year's ICAO 
assembly, the U.S. and most of the world endorsed the utility 
of market-based measures in general and emissions trading in 
particular, as long as those measures are implemented for 
international emissions through mutual consent. Europe 
disagreed with the mutual consent part of that resolution.
    Finally, myth 6: The U.S. has no plan to address aviation's 
greenhouse gas impacts on climate. Fact: We have placed 
environmental stewardship at the heart of our efforts to 
transform the U.S. aviation system through NextGen. We are 
addressing the challenge of aviation emissions via a five-
pillar plan.
    Number one: Improve our scientific understanding of the 
impacts of aviation emissions. As Patrick Moore, cofounder and 
former leader of Greenpeace, recently noted, ``We all have a 
responsibility to be environmental stewards, but that 
stewardship requires that science, not political agendas, drive 
our public policy.''
    Two: Accelerate air traffic management improvements and 
efficiencies to reduce fuel burn. We are putting about a 
billion less tons of CO2 in the atmosphere per year since we 
implemented the reduced vertical separation minimum in 2005, 
and we are accelerating the use of enhanced navigation 
procedures like RNP and CDA to further improve fuel efficiency.
    Three: Hasten the development of promising environmental 
improvements in aircraft technology. The President's budget 
funds, and this Committee's authorization bill authorizes, a 
research consortium called CLEEN, which will accelerate the 
maturation of technology that will lower energy emissions and 
noise.
    Four: Explore the potential of alternative fuels for 
aviation. The FAA helped form and is an active participant in 
the Commercial Aviation Fuels Initiative. You will hear from 
Rich Altman later, the CAAFI Director, about progress we are 
making in this area. Alternative fuels will be the game-changer 
technology that gets us closer to carbon neutrality.
    Five: Market-based measures and emissions trading may be 
useful to reduce emissions if technological operational and 
procedural improvements are not enough.
    Aviation succeeded in its first century because it 
constantly met the challenge of innovation--flying safer, 
faster, quieter, and cleaner. Going forward, climate change 
could be the most significant long-term challenge facing 
aviation. I am confident NextGen and our five-pillar plan will 
provide a science-based, technology-driven approach that 
focuses on performance.
    Thank you, Mr. Chairman. I would be happy to answer any 
questions.
    Mr. Costello. Thank you, Mr. Elwell.
    The Chair now recognizes Dr. Dillingham.
    Mr. Dillingham. Thank you, Chairman Costello, Mr. Petri and 
Members of the Subcommittee.
    In my testimony today, I will address three questions: 
First, what is the nature and scope of aviation emissions? 
Second, what is the status of key Federal efforts to reduce 
emissions? What are some other steps that could be taken to 
reduce emissions?
    Regarding the nature and scope of emissions: Aviation 
emissions can have adverse health and environmental effects. 
They contribute to local air pollution on the ground and to 
greenhouse gases in the atmosphere. Over the last 30 years 
there has been a steady reduction in aircraft emissions. 
However, the increased number of flights, coupled with system 
congestion and delays, has partially offset these reductions. 
The forecast is for continued growth in air traffic for the 
coming decades. Some experts have argued that it will be 
difficult for the technology needed to mitigate emissions to 
keep up with the forecasted growth in traffic.
    Regarding key Federal efforts for reducing emissions: In 
the near term, the technologies and procedures that are being 
developed as part of the NextGen to improve the efficiency of 
flight operations can also reduce aircraft emissions. According 
to FAA, implementing NextGen technologies and procedures will 
allow for the more direct routing of flights, which will also 
improve fuel efficiency and will reduce greenhouse gases 
between 10 and 15 percent. In the long term, emissions controls 
are going to be derived from research and development that is 
focused on increasing fuel efficiency and in mitigating the 
effects of emissions and noise.
    The national plan for aeronautics R&D supports the 
integrated R&D goals for increasing fuel efficiency and for 
reducing emissions and noise. One of the goals of this plan is 
to better understand the nature and impact of aviation 
emissions. The results of this work are expected to support the 
development of lower emitting alternative fuels, more efficient 
air traffic management technologies and procedures and more 
fuel-efficient aircraft engines. Both the FAA and NASA have 
developed strategic plans for work that could help to achieve 
these national goals.
    Turning now to next steps going forward: As mentioned, 
NextGen has the potential to help reduce emissions. Therefore, 
a first step going forward is that FAA should expedite the 
moving of NextGen from planning to implementation. In taking 
this step, the FAA might consider establishing a single office 
that would have the authority to implement NextGen and that 
would be accountable to the FAA Administrator.
    Another step for FAA is to deploy and demonstrate as soon 
as possible an integrated suite of NextGen technologies and 
procedures that are currently available. Such a deployment 
could demonstrate the benefits of NextGen, including greater 
system efficiency and lower emissions. These benefits could 
also incentivize airlines to equip for operating in the NextGen 
environment.
    A next step for Congress is addressing the decline in 
Federal funding for aeronautical research. One way that this 
can be accomplished is by reauthorizing FAA. The House FAA 
reauthorization bill includes funding for the CLEEN Initiative 
that could lead to the early maturation of certain emission-
reduction technologies. Additionally, FAA is requesting a 
threefold increase in its budget for R&D, including $688 
million for NextGen.
    Another step for Congress is to continue considering 
proposals to address climate change, including market-based 
mechanisms and other incentives for technological change. These 
considerations should include the global nature of aviation and 
the potential unintended consequences of the various proposals.
    Mr. Chairman and Members of the Subcommittee, although FAA 
and the aviation industry have exceptional environmental 
records, the issue is not past performance but future 
achievements. Adequately addressing emissions and other 
environmental concerns must be an integral part of efforts to 
improve the efficiency, safety and capacity of the national 
airspace system.
    Thank you, Mr. Chairman.
    Mr. Costello. Thank you, Dr. Dillingham.
    Again, we thank all three of our witnesses on the first 
panel for your testimony.
    Dr. Fahey, talking about research and policy, what 
discussions need to take place to improve the scientific 
knowledge of aviation's impact on the atmosphere?
    Mr. Fahey. Thank you, Mr. Chairman.
    I think it is very clear that the science is not exactly 
where you would want it to be if the objective is to evaluate 
the need for regulation and to follow through with some 
regulation.
    First of all, I think a way to improve the science is to 
consider updating the IPCC 1999 assessment of aviation. This 
was an international scientific exercise, much like the climate 
change assessments that they do, that brought together 
scientists along with stakeholders, both the industry and 
policymakers, to consider what was the impact of aviation. Back 
in 1999, no one really could put a number on it. So a decade 
hence we are not where we would like to be in terms of having 
updated that assessment because things have changed. Models 
have gotten better; the problem has shifted a bit. So that is 
one thing that could be done.
    The second--and it has come up here just in this 
testimony--is that any assessment of aviation's climate impact 
and any assessment of whether regulation is appropriate needs 
to have a scenario of what the future of aviation is going to 
be, meaning I can speak very clearly today as I did about what 
aviation has done to date, but I cannot speak nearly as well 
about what the future is. That is because no one necessarily 
knows the future.
    So, again, scientists could come together with 
policymakers, aircraft, airline industry representatives, and 
their stakeholders to develop those scenarios, and those 
scenarios would address not only expected but also desirable 
changes in the technology in the operations, in the fuels, and 
traffic growth. Again, they are things that have already come 
up here this afternoon.
    So, from a scientific point of view, scientists need to 
know what is most likely going to happen or need to know a 
range of things so that they can evaluate those scenarios, 
rather than all possible scenarios, for the climate impacts and 
then hand those over to the policymakers. Well, first of all, 
they must finish an international assessment that says what we 
think those scenarios mean, and then that provides the basis 
for policymakers.
    Then the final thing that could improve the science is 
simply to strengthen the commitment of U.S. science and 
regulatory agencies to actually spend quality time carrying 
through with these things. Again, we have heard that there are 
ongoing programs that are trying to address these problems, but 
I think, again, we should strengthen that, and we should, 
probably more importantly, coordinate that so we do not 
reinvent the wheel and that we share resources and efforts to 
bring to bear on this.
    Mr. Costello. Thank you.
    Dr. Dillingham, in your testimony, you identify a potential 
research gap for emissions reduction technologies. I wonder if 
you might talk a little bit about the implications of this gap.
    Mr. Dillingham. Yes, Mr. Chairman.
    What we are referring to is, prior to, I think, about 2005, 
NASA, which conducts a significant part of the aeronautical 
research for the U.S., restructured its portfolio in terms of 
the kind of research it would do and the level to which it 
would develop that research. Prior to that time, NASA was 
developing research to, let us say, the technology readiness 
level of five or six, which meant that this level was closer to 
where the industry would pick it up and move it further into 
the potential for something to be used in the development of a 
new product design.
    Since that time, not only has NASA restructured its 
research portfolio, but it has seen a significant decline in 
the amount of money that is available for aeronautical 
research. Part of what was scheduled for that budget was 
research that was going to support NextGen technologies and 
environmental issues for NextGen. So that all had to be 
reevaluated, reshuffled, and so you had a gap between where 
NASA was able to take the technology and where industry would 
pick it up. So that is the gap we are talking about. The 
proposal that you mentioned in your opening statement--the 
CLEEN proposal--as well as other provisions within the House 
reauthorization bill are efforts to close that gap. FAA is 
also, as I said, trying to close the gap. It has the potential 
to slow down NextGen if FAA is not able to get that research 
done that will allow it to move forward with NextGen and 
emission and noise reduction technologies.
    Mr. Costello. Thank you, Dr. Dillingham.
    Mr. Elwell, I think we are all very familiar with the FAA's 
view of the EU legislation, which of course would include U.S. 
carriers and its emissions trading scheme.
    What actions or measures would the FAA or the U.S. 
Government be prepared to take if, in fact, the EU adopts and 
applies the legislation to U.S. carriers?
    Mr. Elwell. Mr. Chairman----
    Mr. Costello. First, you might, for the record, state the 
FAA's view of the EU legislation.
    Mr. Elwell. Regarding the EU legislation in its current 
state, the Administration is against. I want to highlight, 
obviously, the Administration is not against the effort to 
reduce emissions. Clearly, we have had pretty good success in 
recent years.
    Right now, the state of the EU legislation is such that its 
unilateral nature is unacceptable to the U.S., and I would say 
it is so for quite a number of countries. That is why we have 
right now the Group on International Aviation and Climate 
Change which came out of the 36th Assembly last year, which is 
where this impasse sort of came to a head.
    We do not know the final state of the legislation, because 
it is still being worked on. In fact, it is probably having a 
little more difficulty between the EU Commission and the 
Parliament now than it had several months ago. We cannot really 
make a statement on the legislation. It has not reached its 
final form.
    Mr. Costello. But in its current form, clearly the 
administration opposes it?
    Mr. Elwell. Clearly.
    Mr. Costello. The Chair now recognizes the Ranking Member, 
Mr. Petri, for any questions he may have.
    Mr. Petri. Thank you.
    I really wanted to follow up on the questions you were just 
asking and maybe lay a little, or help you lay a little 
foundation for the briefing we are going to be receiving from 
Ambassador Bruton.
    I understand you were over in Brussels some time ago and 
had considerable discussions. The issue of carbon-based 
emissions is not an EU problem or an American problem; it is a 
problem that we feel that needs to be addressed by China and 
India and Europe and the United States, and so on.
    So are there opportunities rather than arguing? What is 
someone to do? The Europeans are trying to move forward. There 
are a number of issues when you get beyond the borders of 
international that are impacting people outside in their own 
countries, and aviation clearly raises almost all of those 
issues. Is there some way we can switch this into a positive 
discussion? Do you have hope that that is going to be possible 
or are we here in a sort of tit-for-tat facedown?
    Mr. Elwell. Well, certainly, there is hope to come to an 
agreement. I agree with you, Mr. Petri. This is a global 
problem, for international aviation as well as maritime. 
Maritime emissions have unique problems. Because so much of the 
emissions are emitted internationally, aviation is in a unique 
position in that, unlike ground-based sources of C02, we have 
currently--aviation has no alternative propulsion source.
    As far as the question of, is there a way to get past this, 
I think absolutely. I think, Mr. Chairman--Chairman Costello--
mentioned phase 2 of the US-EU open aviation negotiations. I 
think that is an excellent opportunity, and I believe it will 
be on the agenda to try to figure out a way. The rest of the 
world believes ICAO still has the mandate to lay out a global 
framework. To that end, the GIACC, the Group on International 
Aviation and Climate Change, will be working hard, very hard, 
over the next 18 months or so to come up with that framework in 
time to help inform the U.N. process in general.
    So, I am a strong proponent, the U.S. is a strong proponent 
for allowing individual states--respecting sovereignty, for 
allowing individual states to work with a suite of measures. 
There are a number of measures that can be used, not just ETS, 
to achieve set goals. I do believe that we need to set some 
goals going forward and then allow states the discretion to use 
this suite of measures necessary to achieve those goals.
    Mr. Petri. Are there opportunities--I should know more 
about the enforcement mechanism or whatever, but are there 
opportunities for sort of a carrot approach as well as for a 
stick approach? We have a relatively older air fleet which can 
be made much more efficient. I know California, as an example, 
some years ago discovered the most efficient thing they could 
do to reduce emissions was to have a bounty on old cars. If we 
could come up with some system like that as part of this, it 
would be a great benefit to a leader in industry that I think 
wants to modernize its fleet but that is really behind the 
eight ball for a variety of reasons in doing that right now. 
Most of the sales of these wonderful new composite planes are 
going to airlines around the world rather than to our domestic 
fleet because of the financial situation. Are there any ideas 
of that sort?
    Mr. Elwell. I do not want to answer a sort of ``carrot'' 
question with a ``stick'' answer. I think right now, clearly, 
the biggest carrot out there is getting the most modern fleet 
mix. For any user of the aviation system, whether it is a 
commercial airline or an individual, private owner, getting the 
most fuel-efficient and modern airframe as soon as possible to 
reduce this cost of fuel burden is the clearest approach. But I 
do think--and I noted--there are a number of States that want 
to incorporate, for instance, an affordable loan program for 
NextGen equipage. I think that it is innovative, and I think it 
is a great idea.
    Mr. Costello. The Chair thanks the Ranking Member and now 
recognizes the gentleman from Wisconsin, Mr. Kagen.
    Mr. Kagen. Thank you, Mr. Chairman, for holding this 
important hearing. Thank you to Ranking Member Petri for 
leading the way on some of these questions.
    Dr. Fahey, am I correct in reading your testimony that 
there is no other means of propelling our aircraft today other 
than by using fossil fuels from some source?
    Mr. Fahey. I did not really address that in my testimony. 
In terms of what we have done so far, that is certainly the 
case. So I am mostly addressing it in terms of the climate 
impact of aviation. Looking backwards in time, what has 
aviation done to date? That ties in with my comment about the 
need for scenarios where, if you want a scientific assessment 
of the future of aviation, we first have to discuss what the 
scenario is of that. The scientists do not define that. We 
should be handed that, so to speak.
    Mr. Kagen. Right. All of the fossil fuels used in 
transporting people and goods in aircraft are giving out 
emissions, as you have stated. There are nitrogen oxide 
components. There are respiratory irritants in sulfates.
    So, as far as you are aware, all of the fossil fuels are 
not healthy for people, right? You would agree with that?
    Mr. Fahey. Well, certainly, as to some of the byproducts of 
fossil fuels, that is correct.
    Mr. Kagen. Yet, it is a very small component of what might 
affect human health?
    Mr. Fahey. That I cannot speak to, but I would guess that 
is the case.
    Mr. Kagen. With regard to the cap and trade that you 
mentioned, Mr. Elwell, has there been any consideration on the 
part of the administration to include the pollution that comes 
our way from China? As you know, China has developed its 
economy largely at the expense of the sacrifice of its 
environment, and their pollutants do not remain in their 
airspace; they travel over to the United States, to the West 
Coast. What measures have you taken to include China into any 
possible cap and trade that moves forward?
    Mr. Elwell. Well, the cap and trade--again, in the aviation 
context for the U.S., for U.S. aviation's contribution to 
climate change, the U.S. does not believe cap and trade is 
appropriate for us. Again, this goes right back to every nation 
is in a different place. China is a country that is part of the 
Group on International Aviation and Climate Change. They plan 
to grow their aviation system 15 percent a year going forward. 
They see possibly mitigating that by 5 percent with NextGen-
like technology. Clearly, they are in a completely different, 
very robust growth state.
    We currently do not have a plan for walling off a cap-and-
trade system for other countries' emissions. Again, that is 
what the global framework is designed to address. It is 
intended to take into account the different socioeconomic 
conditions vis-a-vis aviation that other countries are in but 
still getting to an overall global reduction. I think that is 
the goal globally, to get a global reduction even while 
allowing growth where you can allow growth.
    Mr. Kagen. Has the administration at all considered 
generating or synthesizing fossil fuels by extracting carbon 
dioxide from the atmosphere and then synthesizing jet fuels 
much as the Fischer-Tropsch reaction has been shown to do?
    Is that beyond your area of expertise?
    Mr. Elwell. That would be beyond my area of expertise.
    Mr. Kagen. That is the safest answer on that one.
    I will not ask Dr. Dillingham.
    Mr. Dillingham. Thank you.
    Mr. Kagen. Back to you, Dr. Fahey.
    Mr. Fahey. I am aware of that process. It is not clear to 
me that it is carbon neutral or sufficiently carbon neutral, 
and I do not know that it has been discussed for aviation.
    Mr. Kagen. Very good.
    I yield back my time. Thank you.
    Mr. Costello. The Chair thanks the gentleman.
    There may be other Members who will have questions to 
submit in writing, but at this time, we would recognize Mr. 
Ehlers, the gentleman from Michigan. I understand he may have a 
few questions.
    Mr. Ehlers. Thank you, Mr. Chairman. I have just one fairly 
brief one for Dr. Fahey.
    What can you tell me about the emissions problem at the 
various altitude levels? Obviously, we have piston aircraft 
from 0 to 10, maybe 15, and you have jets at varying altitudes. 
What is the interaction of the emissions with the atmosphere at 
the different levels? Which are worse and which are better?
    Mr. Fahey. Which altitudes are better?
    Mr. Ehlers. Well, I am just wondering what is the byproduct 
of the emissions. Does it depend on the altitude? Does the 
interaction of the emissions with the atmosphere vary with 
altitude? Which is the problem area? Which is less important?
    Mr. Fahey. Well, the short answer is, yes, the effect of 
emissions is certainly a function of altitude. That is part of 
its complexity.
    As I mentioned in my oral testimony, one of the key 
distinguishing factors for aviation is the fact that it is up 
in the atmosphere, well above the Earth's surface. What I did 
not say is why. The reason why is that the emissions' lifetime 
or the time before they are actually removed from the 
atmosphere--as to some of the emissions--increases the higher 
you put them in the atmosphere. So, if an emission is going to 
have a deleterious effect, you enhance it by emitting it high 
in the atmosphere.
    This is not true for C02, as you probably well know, 
because its lifetime exceeds any other one that we are 
considering, so that is not the issue. The nitrogen oxide is 
probably one of the more interesting ones. Nitrogen oxides are 
emitted at the Earth's surface, also in fossil fuel burning, 
but at altitude nitrogen oxides linger around, so to speak. 
They interfere or they contribute to ozone production in a way 
that they do not on the surface of the Earth, meaning they are 
producing that ozone at the same altitude, and they have an 
effect on methane, which you may know is a principal greenhouse 
gas. So that aspect of aviation is one that stands out, for 
example, that no other sector really is noted for having this 
dependency. Again, it depends on altitude. So if all aviation--
I will conjecture--you know, never flew above 3,000 feet, we 
probably would not have the NOx--or the nitrogen oxide--ozone 
methane problem, but the fact that they are more at 30,000 
feet, 40,000 feet now, you do.
    Then there is another example. A small component is water 
vapor, that fossil fuel burning releases water vapor. At the 
Earth's surface that is completely inconsequential, but if you 
are at the high altitudes and in the troposphere and into the 
lower stratosphere, now that water is consequential because 
nature removes most of the water from air as it moves. It 
circulates in the atmosphere, so the stratosphere is 
significantly drier by orders of magnitude than the Earth's 
surface. So if you put in water, even if it looks like it is a 
small amount, it can have a disproportionate effect. Water 
vapor, in the case of aviation, is not the largest impact, as 
you can see from my charts, but it is there; it is measurable; 
it is quantifiable.
    Then of course there are sensitivities, that if you 
increase the altitude of all aviation you would increase that 
term where you may reduce other terms.
    Then another important example is contrails. As you may 
know, contrails require cooperation from the atmosphere, that 
the atmosphere has to be cold enough for a contrail to form and 
it has to have high enough relative humidity, and that does not 
happen in the lower regions of the atmosphere. It is too warm. 
And so you need to go up into the colder troposphere, the lower 
region of the atmosphere before a contrail is likely to form 
given current aviation technology. And so if you were to fly 
all aircraft, I will conjecture, below 3,000 feet you would not 
have contrails. So, if you look at the chart, contrails are a 
significant component of the overall contribution to aviation.
    So, you see those kinds of trade-offs. It really does 
matter. For example, the over-the-pole routes that have become 
popular as a way of shaving distance off of aviation, those 
flights operate a greater fraction of the time in the 
stratosphere because the stratosphere is lower in the polar 
regions. And so an aircraft flying at a constant altitude, 
which they tend to do, will spend more of its time in the 
stratosphere as it goes over the poles than it would if it went 
across the continental U.S. or across the equator. So you can 
even bring it down to not only does it depend on altitude--
well, it does depend on altitude, but it also depends where you 
are in the latitude-longitude space when you make those 
emissions.
    Mr. Ehlers. Thank you very much. That is very interesting. 
I apologize. I was detained and could not be here, but I will 
have to peruse your written statement because I find this very 
intriguing. Thank you very much.
    Mr. Costello. The Chair thanks the gentleman from Michigan 
and thanks our first panel of witnesses for being here and for 
your valuable testimony. You are dismissed.
    I might ask Ambassador Bruton his time schedule. We have 
just been called to the floor for votes, and timing is 
everything around here. There are 10 votes that have been 
called for, which means that we will recess, and it will be 
about an hour and 20 minutes. You have one or two options, Mr. 
Ambassador, depending on your schedule. We could take your 
briefing, your 5-minute briefing, and if you cannot remain 
here, we will submit questions to you in writing. We are 
respectful of your time. In an hour and 20 minutes, we will 
come back and get to our next panel of witnesses.
    So I am giving you the option depending on your time. Do 
you want to go forward with your briefing? Yes.
    The Chair thanks our first panel and will call Ambassador 
Bruton to the witness table, please.
    Now that we have concluded the first panel of the 
Subcommittee hearing, we will recess the hearing and will 
proceed to an open briefing by the head of the delegation of 
the European Commission to the United States, Ambassador John 
Bruton. During this time, the official reporter will take a 
break and will rejoin us when we reconvene with the second 
panel of the hearing.
    I welcome Ambassador Bruton. Ambassador, I thank you for 
being here today, and the Subcommittee appreciates your 
participation and recognizes that neither this Subcommittee nor 
the House has jurisdiction over the ambassador.
    Ambassador Bruton was the Prime Minister of Ireland from 
1993 to 1997. He also had a leading role in the Constitutional 
Convention of the European Union. He was appointed as a 
commission head of the delegation in the United States in 
November of 2004. I have worked, through the Friends of 
Ireland, with the ambassador in his years as the Prime Minister 
of Ireland.
    Ambassador, we welcome you. We thank you for being here, 
and we look forward to your briefing.
    [Whereupon, at 3:25 p.m., the Subcommittee was recessed, to 
reconvene at approximately 4:45 p.m., this same day.]
    Mr. Costello. The Subcommittee will come to order. The 
Chair will announce that we hope that we are finished voting 
for an hour, but we had 10 or more votes but we are hoping that 
we have a little bit of time we can go to your testimony 
immediately. And we appreciate your patience.
    The second panel, let me introduce quickly Mr. Bill Glover 
who is the managing director, Environmental Strategy for the 
Boeing Company. Mr. James C. May, president and CEO of the Air 
Transport Association. Mr. Douglas Lavin, the regional vice 
president for North America, International Air Transport 
Association. Mr. Richard Altman, the executive director, 
Commercial Aviation Alternative Fuels Initiative. Mr. Mark Reis 
who is the managing director of the Seattle Tacoma 
International Airport. Captain Mary Ann Schaffer, the Air Line 
Pilots Association. And the Honorable James Coyne, the 
president of the National Air Transportation Association and a 
former Member of this body.

 TESTIMONIES OF BILL GLOVER, MANAGING DIRECTOR, ENVIRONMENTAL 
STRATEGY, THE BOEING COMPANY; JAMES C. MAY, PRESIDENT AND CEO, 
    AIR TRANSPORT ASSOCIATION; DOUGLAS LAVIN, REGIONAL VICE 
     PRESIDENT, NORTH AMERICA INTERNATIONAL AIR TRANSPORT 
  ASSOCIATION; RICHARD ALTMAN, EXECUTIVE DIRECTOR, COMMERCIAL 
  AVIATION ALTERNATIVE FUELS INITIATIVE; MARK REIS, MANAGING 
   DIRECTOR, SEATTLE TACOMA INTERNATIONAL AIRPORT; MARY ANN 
   SCHAFFER, AIR LINE PILOTS ASSOCIATION; HON. JAMES COYNE, 
  PRESIDENT, NATIONAL AIR TRANSPORTATION ASSOCIATION, FORMER 
                       MEMBER OF CONGRESS

    Mr. Costello. The Chair now recognizes Mr. Glover under the 
5-minute rule.
    Mr. Glover. Thank you, Mr. Chairman, Ranking Member Petri. 
Members of the Subcommittee, thank you for the opportunity to 
testify. In view of the hour, I will keep my remarks very 
short. Recently, the environment has been page 1 news all over 
the world. At Boeing, we have spent 50 years making 
environmental performance of our products a cornerstone of our 
business.
    Today, the Boeing Company produces a family of 18 different 
aircraft, all quieter and more fuel efficient than earlier 
generations of aircraft. Through ICAO, the industry has reduced 
the noise footprint around airports and driven down aircraft-
specific emissions, carbon monoxide, soot and nitrogen oxides 
on a world-wide basis. As aircraft are a uniquely mobile asset, 
designed to fly and be acceptable anywhere in the world, ICAO 
feels a key role in developing clear global standards. This is 
critical for Boeing, as 80 percent of our commercial airplanes 
are delivered outside the United States. We urge Congress to 
allow ICAO to continue its historic role of regulating aircraft 
emissions.
    Improving aircraft is, of course, only part of the 
problem--part of the solution I should say. In order to reduce 
CO2, air traffic management, biofuels and other types of new 
solutions are equally important. Sustainable alternative fuels 
can also help reduce aviation environmental footprint. We are 
focused on second-generation biofuels that do not compete with 
food sources or require large quantities of land or water. For 
example, we completed the first-ever biofuel trial with Virgin 
Atlantic and G.E. earlier this year on a Boeing 747. We are 
planning a similar demonstration with Continental Airlines in 
2009.
    Boeing recognizes we must do our part to improve the 
footprint of aviation. Government must also do its part. 
Specifically, we urge Congress to foster policies that will 
enable NextGen to become a reality. We also need to accelerate 
air traffic management practices and projects that can provide 
improvements to capacity and reduce emissions. And finally, 
ICAO should be allowed to fulfill its well-established role of 
regulating aircraft noise and emissions. Mr. Chairman, thank 
you for the opportunity to testify.
    Mr. Costello. The Chair thanks you, Mr. Glover.
    And we now recognize Mr. May.
    Mr. May. Thank you, Mr. Chairman. I will also be brief. I 
would like to emphasize three key points. First, that 
commercial airlines are extremely greenhouse gas efficient; 
secondly, that we are proactively committed to further limiting 
our emissions footprint and are aggressively pursuing a plan to 
achieve that outcome; and third, there is a critical role for 
the Federal Government to play. Commercial aviation in the 
United States has a decidedly strong track record that is often 
overlooked, or, in fact, even misstated. We contribute just 2 
percent of domestic greenhouse gas emissions compared to 25 
percent for the balance of the transportation industry. This is 
no small achievement considering the commercial aviation is 
essential to our economy and supports nearly 9 percent of U.S. 
employment. Today's airplanes, thanks to Billy and the folks at 
Boeing and Airbus, are not just smarter. They are quieter, 
cleaner, use less fuel than ever before, and we fly them 
smarter. U.S. airlines have been able to deliver more value by 
constantly improving fuel efficiency. We have improved 110 
percent since 1978, resulting in 2.5 billion metric tons of 
carbon dioxide savings which is roughly equivalent to taking 
more than 18.7 million cars off the road in each of those 
years. What is even more amazing is that we burn 4 percent less 
fuel in 2006 than 2000 yet carried 12 percent more passengers, 
22 percent more cargo. So we are delivering the payloads with 
less fuel and more carbon efficiently.
    Today our planes are as fuel efficient as compact cars, 
carry more goods and people more than six times faster, and our 
jets are five or six times more fuel efficient than corporate 
aviation.
    U.S. airlines are highly motivated to continue this trend. 
And this may be one of the most important points I can make. 
Fuel is our largest cost center, averaging 30 to 50 percent of 
operating expenses. 2007 the bill was $41.7 billion. Projected 
2008 $60 billion and climbing. The market is sending commercial 
airlines an overwhelming price signal. As demand for air 
services grows, some growth in aviation services are predicted 
but that is not a bad thing because we drive more 
environmentally efficient economy optimizing global value 
change, creating greater social and economic opportunities. 
IPCC has estimated that by 2050, we will grow a whopping 1 
percent in terms of total greenhouse gas emissions. That is, 
worldwide we will go from 2 percent to 3 percent.
    Now we have got a commitment, ATA carriers, to improve fuel 
efficiency an additional 30 percent by 2025. That means another 
13 million cars coming off the road each of those years. But we 
are going to have to invest over $730 million in new equipment 
and airplanes. We have got $20 to $30 billion--and I said 
million. I meant billion. $730 billion in aircraft. We have a 
big bill for Next Generation coming up and that recognizing 
carbon's fuel supply--carbon-based fuel supply can only take us 
so far, you are going to hear from our friends at CAAFI who are 
talking about all the great things they are doing for 
alternative fuels. So Congress can make all the difference.
    Four areas I would like to suggest, first, update our 
outdated air traffic control system, something that you have 
been leaders on and we have talked about many times. It shows 
us that we can add 10 to 15 percent on top of the already 30 
percent goal that we have got. That is a big, big number. We 
urge Congress to reinvigorate NASA and FAA environmental 
aeronautics R&D programs, ask you to spur further commercial 
development of alternative fuels, and most importantly, we ask 
Congress to forbear from imposing climate change-related 
legislation that would work against our efforts.
    If we continue our fuel efficiency and other advances, we 
have got to have the capital to invest. Punitive economic 
measures that siphon funds out of our industry would severely 
threaten that progress. If you enact a Lieberman-Warner kind of 
legislation with cap and trade, it is going to cost us $100 
billion over the foreseeable near-term future. And that is 
money we could use to spend on air traffic control, new planes, 
avionics, all sorts of things to remain green and as green as 
any industry in the world. We ask for your help and we 
appreciate your time.
    Mr. Costello. The Chair thanks the gentleman.
    And now recognizes Mr. Lavin.
    Mr. Lavin. Thank you, Mr. Chairman, distinguished Members 
of the Subcommittee. Thank you for the opportunity to brief you 
on the steps the commercial aviation industry is taking to 
reduce our environmental footprint. IATA is made up of 235 
carriers from some 140 countries that together represent 
approximately 94 percent of scheduled international traffic.
    My colleague, Jim May, has provided you an excellent 
summary of commercial aviation's impressive environmental 
record to date and our industry's commitment to further reduce 
our carbon footprint. For IATA's part, our members have 
committed to improve our fuel efficiency by 25 percent by 2020. 
As part of that effort, this year IATA is developing an 
industry-wide passenger carbon offset program. In the medium 
term, we will implement a strategy to reach carbon-neutral 
growth. And over the longer term, IATA has a vision of a zero 
emissions commercial aviation industry. Significant reductions 
in carbon emissions will require strong cooperation among air 
carriers, air frame and engine manufacturers and alternative 
fuel suppliers. However, the aviation industry cannot achieve 
these critical targets on our own. We must rely on the support 
of governments around the world if we are going to reach carbon 
neutrality. First, as Jim May already stated, we need this 
Congress to put the right economic incentives in place for the 
development of radically new green technologies. Second, we 
need you to take the steps necessary to address the global 
infrastructure shortage. We need accelerated funding for 
NextGen and to encourage Europe to deliver on their long-
promised Single Sky project. In operations, we need the 
Congress to promote the optimization of U.S. and global air 
routes and the FAA's deployment of key capabilities like RNP, 
RNF, and ADS-B. Third, we need this Congress to set an example 
for the world by refusing to implement barriers to the airline 
industry's effort to reduce its carbon footprint. We are 
strongly opposed to negative economic measures that do nothing 
to support the environment. Some examples of these negative 
measures may be useful.
    As the Chairman noted previously, the U.K. recently 
announced its intention to require aviation to pay more of its 
environmental cost by replacing an already onerous air 
passenger duty tax with a duty payable based on the size of the 
aircraft and the distance it is travelling. This 
extraterritorial scheme violates international law and is 
simply using the environment as a cover for an effort to 
address a budgetary shortfall. Likewise, we cannot tolerate 
including aviation in flawed emissions trading schemes. IATA 
believes that a properly designed global ETS may help close the 
gap between growth in aviation and emissions as long as it is 
accompanied with investments in technology, improved operations 
and better infrastructure. Unfortunately Europe is proposing to 
include aviation in an ETS that is anything but properly 
designed. It is a unilateral regional measure when our mobile 
industry needs global solutions.
    It is extraterritorial to the point that it proposes to 
control emissions by U.S. carriers while operating in U.S. 
airspace and over international waters. It would require 
airlines to buy permits for all of our emissions by 2020, 
thereby ignoring the progress we have made and our aggressive 
carbon reduction targets. It is also important to note that the 
European Commission is now studying how to impose controls on 
NOx emissions despite existing IKO global controls of these 
emissions.
    Here in the United States, we share Mr. May's concern about 
the structure of the Lieberman-Warner climate change bill. It 
proposes to control aviation emissions by requiring fuel 
producers to acquire allowances to cover the greenhouse gas 
content of the fuel they sell to the transportation sector. The 
cost of these allowances would be passed on directly to 
airlines, thereby serving as a tax on airline operations and 
ultimately our passengers. To make matters worse, unlike other 
dirtier and less progressive industries, the producers would 
not be granted any allowances for the progress we have made to 
date on fuel efficiency.
    We urge the House to oppose the Senate climate tax that 
only hinders industry's efforts to address this global problem. 
In closing, IATA and its member airlines are proud of their 
environmental record and are committed to further aggressively 
reduce our carbon footprint. We look forward to working with 
this Subcommittee to promote solutions that allow us to reach 
our shared green goals. Thank you.
    Mr. Costello. The Chair thanks you, Mr. Lavin and now 
recognizes Mr. Altman.
    Mr. Altman. Mr. Chairman, in your April 8 op-ed for The 
Hill you stated that aviation is leading the way in research in 
alternative fuels. In testifying today as a representative of 
that effort, my goal is to provide new information and overall 
progress on alternative fuel efforts since we last spoke. For 
those not familiar with CAAFI, the Commercial Aviation 
Alternative Fuels Initiative is a data gathering communications 
collaboration that seeks to increase both the quantity and the 
quality of dialogue amongst airline, airport, manufacturer and 
FAA sponsors. CAAFI engages multiple government, industry and 
university stakeholders. Over 20 energy suppliers are now 
stakeholders in CAAFI. We are global in reach with stakeholders 
on four continents. CAAFI now sees our catalyst for informed 
and expedited solutions that serve all components of the supply 
chain. The goal is to make our relatively small sector of 
transportation a customer of choice for introducing alternative 
fuels.
    I will focus on three specific areas. First is to make sure 
that alternative fuels are certified. Second are the 
environmental considerations for both greenhouse gases and 
local air quality. Third is establishing an opportunity for 
buyer-supplier dialogue that can result in aviation being an 
early buyer for alternative supplies.
    The first 4 months of 2008 have seen unprecedented level of 
activity in all these areas. Regarding certification, on April 
11 the Air Force Certification Office approved the new JP8 Mil 
Spec embracing 50/50 blends of Synthetic Paraffinic Kerosene. 
These include coal, gas and biomass. This quantification is the 
first critical break from the long-term certification approach 
which qualified fuels on an individual producer/individual 
plant basis. In February, the CAAFI certification team provided 
a similar proposal for commercial approvals. Taken together, 
these investments form critical signposts to investors that 
aviation fuel plan investment is viable. These include plants 
in Illinois and Ohio with candidates from Rentech, American 
Clean Coal Fuels and Baard Energy. If initial approvals for 
these projects are granted this year, initial production will 
occur as early as 2012.
    Promising developments do not stop there. CAAFI's R&D and 
certification teams are working together to achieve long-term 
goals of approving sustainable biofuels. Such progress involves 
fuels from hydrogenated plant oils. Recognizing that just CAAFI 
having a goal of 2013 for sustainable aviation biofuel is 
inadequate, we have a roadmap that our R&D team lead and our 
certification team lead in concert with what the Air Force has 
put together.
    Ultimately, fuel from algae may have the greatest yield of 
all energy crops, as much as 100 times the yield of current 
biofuel crops. Commercial aviation's effort and the environment 
have taken a similar large stride.
    The MIT-led PARTNER Center of Excellence's precedent 
setting Well to Wake environmental life cycle models co-2 
outputs for over a dozen candidates fuel types. The first phase 
of the FAA-funded project is complete. The second iteration is 
planned.
    Work to date on these models suggests that there are a wide 
range of options that have the potential to outperform current 
oil refineries in greenhouse gas production. The key 
characteristics of alternative fuels is that they are extremely 
low in sulfur and result in small soot parcels, now identified 
in EPA-issued standards. With over half the airports in the 
U.S. identified nonattainment areas under the standard use of 
emerging alternative fuels may be one of the best tools to 
control growth in PM2.5 exposure that could ultimately limit 
the growth of commercial aviation.
    To ease new fuels introduction to airport markets, CAAFI 
recommended a project to combine these tools via development of 
an airport handbook calculation procedure. The TRB Airport 
Cooperative Research Program initiated that program last year.
    The last piece of the puzzle is to have buyers for these 
new fuels. And I would like to thank Jim for his action on 
Earth Day to put together a policy on which we can base that 
dialogue.
    Now to ensure that this process is substantive the ATA 
Energy Council and the CAAFI business and economic team will 
bring suppliers and airline users together in the September and 
October time period here in Washington to initiate dialogue.
    In closing, I would like to thank you, Mr. Chairman, for 
your support of CAAFI and I would like to thank publicly the 
approximately 150 largely volunteer members of the CAAFI 
coalition for their contributions to these efforts. For most 
including our team leaders, this is not their day job.
    So thank you also to FAA and Dan Elwell for supporting the 
effort and for recognizing immediately that was a very 
important part of the puzzle.
    Mr. Costello. Thank you, Mr. Altman.
    And the Chair, now recognizes Mr. Reis.
    Mr. Reis. Mr. Chairman, thank you for the opportunity to 
testify today about airport efforts to reduce greenhouse gas 
emissions. While I serve as the managing director of SeaTac 
Airport, I am also on the board of directors of Airports 
Council International North America. So, while my testimony 
today will focus on the progress we have made at SeaTac, but I 
also represent the broader airport community here today.
    Environmental protection has for decades been an integral 
part of airports' responsibilities. As the public face of the 
aviation industry in our communities, airports play a 
leadership role in demonstrating environmental stewardship to 
the local and global communities we serve. Airports' 
contribution to aviation's global greenhouse gas emissions is 
relatively small. And airports have little or no control over 
some of the larger contributors such as aircraft and private 
vehicles. But in spite of that limited role, we recognize that 
everyone has a responsibility to reduce their contribution to 
climate change, and airports are committed to doing everything 
appropriate.
    Last year, SeaTac Airport prepared a greenhouse gas 
emissions inventory. Not surprisingly, aircraft were found to 
be the largest contributor to the 4.7 million tons of CO2 at 
SeaTac, about 90 percent of the total. Public movement to and 
from the airport accounted for about 8 percent of that number. 
And airport-controlled emissions were only 1.4 percent.
    The value of the inventory of course is that it allows us 
to identify opportunities to reduce greenhouse gas emissions 
and measure our progress. However, we did not wait for the 
inventory to initiate our focus on emission reductions. For the 
past several years, we have purchased green power to serve 25 
percent of our electric load. We have initiated energy 
conservation investments that have reduced our electrical 
energy consumption by 25 percent despite expanding our terminal 
facilities by 20 percent and have transitioned to many CNG 
vehicles.
    Price signals are a key component to reducing our 
footprint. Like every other airport, we used to mask the real 
cost of some of the utilities_power, water, sewer_by including 
those costs in the airline landing fees.
    In 2001, however, we established a utility system using the 
same rate-making methodology that regulated utility would use 
to charge airlines, concessionaires and other customers for 
their actual utility usage. Instantly, these clearer price 
signals allowed us to demonstrate to our customers the cost 
effectiveness of conservation measures. We have recently used a 
similar system to change the economics of waste hauling at 
SeaTac as well.
    Mr. Chairman, we have also found that we can cut greenhouse 
gases even as we pursue operational and customer service 
enhancements. For example, our parking pay on foot system and 
space count systems, our underground fuel hydrant system and 
the future consolidated hotel shuttle system will all enhance 
customer service, decrease operating costs for us and our 
customers, improve local air quality and cut greenhouse gas 
emissions.
    We are working closely with our airline partners in a 
variety of initiatives to reduce fuel burn and emissions on the 
ground. In 2006, we opened a ramp tower that has significantly 
improved the efficiency and safety of ramp operations, saving 
the airlines 800,000 gallons of fuel each year and reducing 
emissions by 8,500 tons per year. We also provide airlines the 
option to power aircraft electrical needs with gate-side 
electricity, which reduces the need to run auxiliary power 
units and will soon be providing chargers so the airlines can 
transition to electric ground service equipment fleets.
    We are now designing a centralized preconditioned air 
system that will save approximately 5 million gallons of 
aircraft fuel each year, and we are working very closely with 
Alaska Airlines and the FAA to explore accelerated 
implementation of an offset RNP approach that could further 
reduce fuel burn and greenhouse gas emissions.
    Mr. Chairman, while airports are quite focused on reducing 
greenhouse gas emissions, some irports, especially smaller 
airports with fewer financial resources, could do more. My 
written testimony includes some suggestions for changes in AIP 
provisions, over and above those the Committee has already 
included in the reauthorization bill, that could help airports 
pursue additional initiatives.
    In closing, let me reiterate the greenhouse gas emissions 
are just one of many important environmental challenges that 
airports and aviation face each day. We must carefully balance 
the need to reduce greenhouse gas emissions with a need to 
reduce impacts from noise and local air quality. In doing so, 
airports must continue to, and pledge that we will continue to, 
lead the environmental stewardship role within our communities.
    Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks you, Mr. Reis, and now 
recognizes Captain Schaffer.
    Ms. Schaffer. Good afternoon Chairman Costello, Ranking 
Member Petri. I am Captain Mary Ann Schaffer, chairperson of 
the Air Line Pilots Association's Task Force on Aviation 
Sustainability and the Environment. I have been an airline 
pilot for a major network carrier for more than 19 years and 
certainly serve as an A320 captain. Thank you for the 
opportunity to represent ALPA's 56,000 pilot members and to 
present an airline perspective on aviation and the environment.
    Airline pilots work at the nexus of air traffic technology, 
aircraft capability and operational limitation. We bear the 
ultimate responsibility for the safety of our passengers, cargo 
and crew.
    In our view, any change to regulations, laws or operational 
initiatives must be based on maintaining or improving aviation 
safety. To be more direct, pilots must be fully engaged to 
ensure that ALPA's top priority, safety, remains paramount. 
That said, pilots fly airplanes powered by engines that burn 
fuel.
    Members of this Committee may remember the thundering noise 
and plumes of exhaust of a first-generation jet laboring down a 
runway for takeoff. Thankfully, the noise of today's jets are 
mere whispers in comparison. In fact, today's aircraft carries 
6 times more payload and use 60 percent less fuel.
    ALPA pilots' jobs and careers rely on a financially strong 
and stable airline industry. The current challenges we face are 
unprecedented. Record high fuel prices, industry consolidation 
and an aging airspace system that requires complete overhaul. 
On environmental policy, we also have the added challenge of a 
patchwork of local, State, national and international 
environmental regulations or proposed initiatives that add 
taxes and charges.
    So challenges certainly exist but real solutions do too. 
ALPA is now fully engaged in many initiatives to further 
decrease greenhouse gas emissions and reduce fuel burn. Let me 
give you an example. RNP and RNF procedures use satellite-based 
technology. We can track a shorter lateral path with a more 
efficient descent profile to a runway. The same techniques are 
applied to departure paths, allowing for precise ground tracks 
to minimize noise and provide more efficient climbs to higher 
fuel-saving altitudes. These procedures have already proven 
increased efficiency, reduced noise and emissions and lowered 
pilot and controller workload. Last week, a controller had to 
issue 10 different heading and speed changes to me as I 
approached San Francisco. The controller, clearly skilled, 
timed our arrival onto the landing runway while clearing 
crossing runway traffic for takeoff between each landing. The 
skill of the controller maximized runway use, but our approach 
was far from fuel efficient.
    So what can industry and government do to make rapid 
progress to cut emissions, save fuel and reduce noise?
    First, we need a national energy policy that promotes 
innovation and provides robust funding for energy research and 
development to find a reasonable alternative to jet fuel. 
Second, we need to support modernization of the air traffic 
control system in every way possible, including accelerating 
NextGen. As an example of inefficiencies in the current ATC 
system, last month in San Juan, I delayed starting the second 
engine on my airliner to save fuel on taxi out. Based on my 
experience operating in and out of San Juan, I elected to start 
the second engine with three aircraft in front of me for 
takeoff.
    My judgment proved incomplete. We sat for an additional 45 
minutes waiting for a significant number of inbound aircraft to 
land. If I had had all the traffic information available, I 
would have made a different decision. Current NextGen plans 
will provide such information sharing.
    We also need to back infrastructure improvements like new 
runways and taxiways such as at O'Hare, Atlanta and Washington 
Dulles. All of these critical improvements can and must be 
implemented without imposing new economic burdens on the 
struggling airline industry. The U.S. airline industry has 
already made enormous strides in improving its environmental 
impact without instituting market-based measures. ALPA is 
committed to helping establish international emissions 
standards and standard operating procedures to protect the 
environment, promote the economic health of our industry, and 
maintain safety. After all, with oil hitting $121 a barrel, our 
industry already has the economic incentive to save fuel and 
reduce emissions.
    Thank you again for the opportunity to present our view 
from the cockpit.
    Mr. Costello. The Chair thanks you, Captain Schaffer and 
now recognizes our former colleague, Mr. Coyne.
    Mr. Coyne. Thank you very much, Mr. Chairman, and Mr. 
Ranking Member Petri. As you know, NATA represents some nearly 
2,000 aviation businesses at airports across the country from 
Cahokia, Illinois, to Oshkosh, Wisconsin, and everywhere in 
between. And at each of those airports there are aviation 
businesses that are just as committed as some of our larger 
colleagues in the industry to reducing greenhouse gas 
emissions. Fundamentally, of course, greenhouse gas emission 
reduction is a function of aircraft size, engine efficiency and 
the operational route and procedures that aircraft follows. 
Small airplanes have the same opportunity to reduce greenhouse 
gas emissions as larger airplanes.
    In fact, as you may know, both of you may know, some of the 
most efficient aircraft in the world are some of our smallest 
aircraft. And I am pleased to report that in the last 10 or 15 
years, there has been tremendous research advances in both the 
engine efficiency of small aircraft and the efficiency of the 
aircraft themselves as the aircraft become lighter, able to 
make a more efficient use of their time and the engine activity 
that they have.
    We strongly encourage all of the other things that have 
been said here, especially with regard to airspace redesign and 
NextGen development. NextGen is going to be one of the most 
important elements of reducing our greenhouse gases because the 
tremendous waste that we have already heard from my colleagues 
at ALPA and IATA and ATA.
    But I might point out that smaller aircraft, especially 
private aircraft and charter aircraft, are uniquely victimized 
by air traffic control rules that oftentimes lead these 
aircraft to operate at a much, much lower altitude than is 
operationally efficient. They are also subject to far more 
involved routing departures, arrivals many times. Many of the 
small aircraft pay what amounts to a 50 percent premium in 
inefficient fuel and waste for a typical flight.
    So we strongly support the development of NextGen and hope 
that we can see Congress in the new FAA reauthorization 
accelerate the NextGen implementation.
    I remember testifying before this Committee in 1994 when 
the first proposals were advanced from the FAA for NextGen. 
That was 14 years ago. At that time somebody asked--one of the 
Members of the Committee asked the FAA experts how long would 
it take to implement advances in ADS-B and satellite 
navigation, all of the things that are now part of NextGen. And 
back in 1994 the answer was: it would take 20 years. Everyone 
in the room at that time almost laughed, thinking, how could it 
take 20 years to implement something like that? Well, here we 
are 14 years later and many would say that we are really not 
that much closer to implementing the NextGen advances that we 
need to move forward.
    It is up to this Committee to set the timetable I think for 
NextGen development and I hope that you will take very 
seriously the opportunity that is now provided by the added 
fuel cost to make it even more imperative that we bring NextGen 
to a reality.
    NATA and our member firms very much want to be a part of 
that development, that research. And you will have an 
opportunity on Monday to see two of the more innovative 
companies in our industry out at Dulles Airport. We are going 
to be bringing the Eclipse aircraft and DayJet, and an 
operational firm down in Florida will be there as well, along 
with several other small charter operators to demonstrate how 
small aircraft can be especially efficient in these high fuel 
cost days.
    One of the things to be mindful of is that the entire 
carbon footprint of a traveller is the sum of all of his travel 
to the airport, then in the aircraft and then back once he 
lands. And so for you to get from eastern Illinois up to 
Oshkosh, Wisconsin, to meet your Ranking Member on an occasion, 
I submit that taking a private plane may be the most efficient 
way with the least carbon footprint to get from that point A to 
point B rather than trying to get to an airline and get on an 
airplane and then onto a car and so on and so forth.
    So please bear in mind that small aircraft are a very 
important part of the solution, a very important part of 
working together with government and industry to make this 
happen. And we hope that some of you can come out to Dulles 
Airport and see some of these new aircraft next Monday.
    Thank you very much.
    Mr. Costello. The Chair thanks you, Mr. Coyne.
    You can hear the bells. We are being called for additional 
votes. I have one quick question. I am going to yield to the 
Ranking Member to ask a question, and then he and I have agreed 
that we will submit written questions to you. I have some for 
Mr. Glover, Mr. Lavin and Mr. Altman.
    Let me ask you, Mr. Altman, your organization and the Air 
Force, you have been working on a joint roadmap to achieve full 
certification of sustainable aviation biofuels. Where are you 
in the process?
    Mr. Altman. Where we are in that process. DARPA, in 
particular, has completed early research on three different 
hydrogenated plant oils. In addition, they have programs 
Centrolium and Tyson Food on a separate item from animal oil.
    There may be some additional fuels that Boeing will supply 
to that process. So we will have about a half dozen different 
samples by the end of the year that we can put through the 
certification protocols for what they call fit-for-purpose 
testing. With that in mind, we have the opportunity then to 
certify--from what the experts have told me, it will take quite 
some time to do that. But it would appear with all the engine 
tests and the component tests that need to be done that this 
could be accomplished on a generic basis with pure sustainable 
biojet fuel by 2013.
    It will require--the big linchpin in this is, can we get 
adequate investment to produce 250,000 to 500,000 gallons of 
biofuel for those tests? That is what the energy companies have 
told us they need. To do that would require a good $100 million 
in investment. The way we have approached that is to start a 
dialogue to incorporate EER&E, the renewable side of DOE and 
USDA in our dialogue. Perhaps they can be helpful within the 
environment to get some sustainable biofuel production going 
along to match up with our efforts in the certification area.
    Mr. Costello. I thank you, Mr. Altman. As I said, I have 
some other questions that I will submit in writing. And the 
Chair now recognizes the Ranking Member, Mr. Petri.
    Mr. Petri. Well, I would just like to thank you all for 
your indulgence. Our schedule, as you know, some of you have 
been here many times before know that we just can't control it. 
We are doing the best we can under the circumstances. We 
appreciate your rolling with the punches, so to speak. I just 
will submit additional questions. But Mr. Coyne, I think in 
your written testimony, you referred to a kind of a rule of 
thumb that air transport flights have three times the 
greenhouse gas effect of surface transportation flights. Is 
that sustainable? Is that in dispute? That would make quite a 
difference in all of these discussions.
    Mr. Coyne. Well, at altitudes, the consumption of fuel is 
much, much lower than it is at sea level for the same engine. 
And because the air--you have a couple of combined effects. The 
air is, of course, less dense, so you don't need as much force 
to get through the air. And the efficiency of the engines 
increases as well. So we--all of us, whether we are flying an 
Airbus or a Cherokee prefer to be flying as high as we can most 
of the time. And this is one of the reasons that the continuous 
ascent approach, the RNP approaches that the NextGen is talking 
about and especially the ability to get up to altitude as 
quickly as you can and to stay there as long as you can. And 
there is a lot of research that needs to be done.
    There is mid-level altitudes at the 20,000-foot level we 
don't know as much about. Because the troposphere there doesn't 
lead--we don't have the contrails typically developing around 
20,000 feet. So we have some of the newer jets which--
especially the smaller jets, the DayJet-type aircraft that can 
operate efficiently at 26,000, 27,000, 28,000 feet may find 
that it is more from a footprint issue better to operate at 
that level without the contrails being developed even though 
the engines aren't quite as efficient as they might be up at 
41,000. But we need research because we don't have easy 
answers. And one of the things we are doing with DayJet and 
others is get aircraft involved in testing these different 
issues of altitudes height and, of course, improved approaches 
into and from airports.
    Mr. Costello. The Chair, again, thanks all of you not only 
for your testimony, but your patience. I know some of you have 
been here 4 hours. So we do appreciate your testimony and your 
patience. And we look forward to continuing to work with you 
and this important issue. With that, the Chair now adjourns. I 
am so used to recessing today. The Chair now adjourns the 
Subcommittee.
    [Whereupon, at 6:05 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T2305.009
    
    [GRAPHIC] [TIFF OMITTED] T2305.010
    
    [GRAPHIC] [TIFF OMITTED] T2305.011
    
    [GRAPHIC] [TIFF OMITTED] T2305.012
    
    [GRAPHIC] [TIFF OMITTED] T2305.013
    
    [GRAPHIC] [TIFF OMITTED] T2305.014
    
    [GRAPHIC] [TIFF OMITTED] T2305.015
    
    [GRAPHIC] [TIFF OMITTED] T2305.016
    
    [GRAPHIC] [TIFF OMITTED] T2305.017
    
    [GRAPHIC] [TIFF OMITTED] T2305.018
    
    [GRAPHIC] [TIFF OMITTED] T2305.019
    
    [GRAPHIC] [TIFF OMITTED] T2305.020
    
    [GRAPHIC] [TIFF OMITTED] T2305.021
    
    [GRAPHIC] [TIFF OMITTED] T2305.022
    
    [GRAPHIC] [TIFF OMITTED] T2305.023
    
    [GRAPHIC] [TIFF OMITTED] T2305.024
    
    [GRAPHIC] [TIFF OMITTED] T2305.025
    
    [GRAPHIC] [TIFF OMITTED] T2305.026
    
    [GRAPHIC] [TIFF OMITTED] T2305.027
    
    [GRAPHIC] [TIFF OMITTED] T2305.028
    
    [GRAPHIC] [TIFF OMITTED] T2305.029
    
    [GRAPHIC] [TIFF OMITTED] T2305.030
    
    [GRAPHIC] [TIFF OMITTED] T2305.031
    
    [GRAPHIC] [TIFF OMITTED] T2305.032
    
    [GRAPHIC] [TIFF OMITTED] T2305.033
    
    [GRAPHIC] [TIFF OMITTED] T2305.034
    
    [GRAPHIC] [TIFF OMITTED] T2305.035
    
    [GRAPHIC] [TIFF OMITTED] T2305.036
    
    [GRAPHIC] [TIFF OMITTED] T2305.037
    
    [GRAPHIC] [TIFF OMITTED] T2305.038
    
    [GRAPHIC] [TIFF OMITTED] T2305.039
    
    [GRAPHIC] [TIFF OMITTED] T2305.040
    
    [GRAPHIC] [TIFF OMITTED] T2305.041
    
    [GRAPHIC] [TIFF OMITTED] T2305.042
    
    [GRAPHIC] [TIFF OMITTED] T2305.043
    
    [GRAPHIC] [TIFF OMITTED] T2305.044
    
    [GRAPHIC] [TIFF OMITTED] T2305.045
    
    [GRAPHIC] [TIFF OMITTED] T2305.046
    
    [GRAPHIC] [TIFF OMITTED] T2305.047
    
    [GRAPHIC] [TIFF OMITTED] T2305.048
    
    [GRAPHIC] [TIFF OMITTED] T2305.049
    
    [GRAPHIC] [TIFF OMITTED] T2305.050
    
    [GRAPHIC] [TIFF OMITTED] T2305.051
    
    [GRAPHIC] [TIFF OMITTED] T2305.052
    
    [GRAPHIC] [TIFF OMITTED] T2305.053
    
    [GRAPHIC] [TIFF OMITTED] T2305.054
    
    [GRAPHIC] [TIFF OMITTED] T2305.055
    
    [GRAPHIC] [TIFF OMITTED] T2305.056
    
    [GRAPHIC] [TIFF OMITTED] T2305.057
    
    [GRAPHIC] [TIFF OMITTED] T2305.058
    
    [GRAPHIC] [TIFF OMITTED] T2305.059
    
    [GRAPHIC] [TIFF OMITTED] T2305.060
    
    [GRAPHIC] [TIFF OMITTED] T2305.061
    
    [GRAPHIC] [TIFF OMITTED] T2305.062
    
    [GRAPHIC] [TIFF OMITTED] T2305.063
    
    [GRAPHIC] [TIFF OMITTED] T2305.064
    
    [GRAPHIC] [TIFF OMITTED] T2305.065
    
    [GRAPHIC] [TIFF OMITTED] T2305.066
    
    [GRAPHIC] [TIFF OMITTED] T2305.067
    
    [GRAPHIC] [TIFF OMITTED] T2305.068
    
    [GRAPHIC] [TIFF OMITTED] T2305.069
    
    [GRAPHIC] [TIFF OMITTED] T2305.070
    
    [GRAPHIC] [TIFF OMITTED] T2305.071
    
    [GRAPHIC] [TIFF OMITTED] T2305.072
    
    [GRAPHIC] [TIFF OMITTED] T2305.073
    
    [GRAPHIC] [TIFF OMITTED] T2305.074
    
    [GRAPHIC] [TIFF OMITTED] T2305.075
    
    [GRAPHIC] [TIFF OMITTED] T2305.076
    
    [GRAPHIC] [TIFF OMITTED] T2305.077
    
    [GRAPHIC] [TIFF OMITTED] T2305.078
    
    [GRAPHIC] [TIFF OMITTED] T2305.079
    
    [GRAPHIC] [TIFF OMITTED] T2305.080
    
    [GRAPHIC] [TIFF OMITTED] T2305.081
    
    [GRAPHIC] [TIFF OMITTED] T2305.082
    
    [GRAPHIC] [TIFF OMITTED] T2305.083
    
    [GRAPHIC] [TIFF OMITTED] T2305.084
    
    [GRAPHIC] [TIFF OMITTED] T2305.085
    
    [GRAPHIC] [TIFF OMITTED] T2305.086
    
    [GRAPHIC] [TIFF OMITTED] T2305.087
    
    [GRAPHIC] [TIFF OMITTED] T2305.088
    
    [GRAPHIC] [TIFF OMITTED] T2305.089
    
    [GRAPHIC] [TIFF OMITTED] T2305.090
    
    [GRAPHIC] [TIFF OMITTED] T2305.091
    
    [GRAPHIC] [TIFF OMITTED] T2305.092
    
    [GRAPHIC] [TIFF OMITTED] T2305.093
    
    [GRAPHIC] [TIFF OMITTED] T2305.094
    
    [GRAPHIC] [TIFF OMITTED] T2305.095
    
    [GRAPHIC] [TIFF OMITTED] T2305.096
    
    [GRAPHIC] [TIFF OMITTED] T2305.097
    
    [GRAPHIC] [TIFF OMITTED] T2305.098
    
    [GRAPHIC] [TIFF OMITTED] T2305.099
    
    [GRAPHIC] [TIFF OMITTED] T2305.100
    
    [GRAPHIC] [TIFF OMITTED] T2305.101
    
    [GRAPHIC] [TIFF OMITTED] T2305.102
    
    [GRAPHIC] [TIFF OMITTED] T2305.103
    
    [GRAPHIC] [TIFF OMITTED] T2305.104
    
    [GRAPHIC] [TIFF OMITTED] T2305.105
    
    [GRAPHIC] [TIFF OMITTED] T2305.106
    
    [GRAPHIC] [TIFF OMITTED] T2305.107
    
    [GRAPHIC] [TIFF OMITTED] T2305.108
    
    [GRAPHIC] [TIFF OMITTED] T2305.109
    
    [GRAPHIC] [TIFF OMITTED] T2305.110
    
    [GRAPHIC] [TIFF OMITTED] T2305.111
    
    [GRAPHIC] [TIFF OMITTED] T2305.112
    
    [GRAPHIC] [TIFF OMITTED] T2305.113
    
    [GRAPHIC] [TIFF OMITTED] T2305.114
    
    [GRAPHIC] [TIFF OMITTED] T2305.115
    
    [GRAPHIC] [TIFF OMITTED] T2305.116
    
    [GRAPHIC] [TIFF OMITTED] T2305.117
    
    [GRAPHIC] [TIFF OMITTED] T2305.118
    
    [GRAPHIC] [TIFF OMITTED] T2305.119
    
    [GRAPHIC] [TIFF OMITTED] T2305.120
    
    [GRAPHIC] [TIFF OMITTED] T2305.121
    
    [GRAPHIC] [TIFF OMITTED] T2305.122
    
    [GRAPHIC] [TIFF OMITTED] T2305.123
    
    [GRAPHIC] [TIFF OMITTED] T2305.124
    
    [GRAPHIC] [TIFF OMITTED] T2305.125
    
    [GRAPHIC] [TIFF OMITTED] T2305.126
    
    [GRAPHIC] [TIFF OMITTED] T2305.127
    
    [GRAPHIC] [TIFF OMITTED] T2305.128
    
    [GRAPHIC] [TIFF OMITTED] T2305.129
    
    [GRAPHIC] [TIFF OMITTED] T2305.130
    
    [GRAPHIC] [TIFF OMITTED] T2305.131
    
    [GRAPHIC] [TIFF OMITTED] T2305.132
    
    [GRAPHIC] [TIFF OMITTED] T2305.133
    
    [GRAPHIC] [TIFF OMITTED] T2305.134
    
    [GRAPHIC] [TIFF OMITTED] T2305.135
    
    [GRAPHIC] [TIFF OMITTED] T2305.136
    
    [GRAPHIC] [TIFF OMITTED] T2305.137
    
    [GRAPHIC] [TIFF OMITTED] T2305.138
    
    [GRAPHIC] [TIFF OMITTED] T2305.139
    
    [GRAPHIC] [TIFF OMITTED] T2305.140
    
    [GRAPHIC] [TIFF OMITTED] T2305.141
    
    [GRAPHIC] [TIFF OMITTED] T2305.142
    
    [GRAPHIC] [TIFF OMITTED] T2305.143
    
    [GRAPHIC] [TIFF OMITTED] T2305.144
    
    [GRAPHIC] [TIFF OMITTED] T2305.145
    
    [GRAPHIC] [TIFF OMITTED] T2305.146
    
    [GRAPHIC] [TIFF OMITTED] T2305.147
    
    [GRAPHIC] [TIFF OMITTED] T2305.148
    
    [GRAPHIC] [TIFF OMITTED] T2305.149
    
    [GRAPHIC] [TIFF OMITTED] T2305.150
    
    [GRAPHIC] [TIFF OMITTED] T2305.151
    
    [GRAPHIC] [TIFF OMITTED] T2305.152
    
    [GRAPHIC] [TIFF OMITTED] T2305.153
    
    [GRAPHIC] [TIFF OMITTED] T2305.154
    
    [GRAPHIC] [TIFF OMITTED] T2305.155
    
    [GRAPHIC] [TIFF OMITTED] T2305.156
    
    [GRAPHIC] [TIFF OMITTED] T2305.157
    
    [GRAPHIC] [TIFF OMITTED] T2305.158
    
    [GRAPHIC] [TIFF OMITTED] T2305.159
    
    [GRAPHIC] [TIFF OMITTED] T2305.160
    
    [GRAPHIC] [TIFF OMITTED] T2305.161
    
    [GRAPHIC] [TIFF OMITTED] T2305.162
    
    [GRAPHIC] [TIFF OMITTED] T2305.163
    
    [GRAPHIC] [TIFF OMITTED] T2305.164
    
    [GRAPHIC] [TIFF OMITTED] T2305.165
    
    [GRAPHIC] [TIFF OMITTED] T2305.166
    
    [GRAPHIC] [TIFF OMITTED] T2305.167
    
    [GRAPHIC] [TIFF OMITTED] T2305.168
    
    [GRAPHIC] [TIFF OMITTED] T2305.169
    
    [GRAPHIC] [TIFF OMITTED] T2305.170
    
    [GRAPHIC] [TIFF OMITTED] T2305.171
    
    [GRAPHIC] [TIFF OMITTED] T2305.172
    
    [GRAPHIC] [TIFF OMITTED] T2305.173
    
    [GRAPHIC] [TIFF OMITTED] T2305.174
    
    [GRAPHIC] [TIFF OMITTED] T2305.175
    
    [GRAPHIC] [TIFF OMITTED] T2305.176
    
    [GRAPHIC] [TIFF OMITTED] T2305.177
    
    [GRAPHIC] [TIFF OMITTED] T2305.178
    
    [GRAPHIC] [TIFF OMITTED] T2305.179
    
    [GRAPHIC] [TIFF OMITTED] T2305.180
    
    [GRAPHIC] [TIFF OMITTED] T2305.181
    
    [GRAPHIC] [TIFF OMITTED] T2305.182
    
    [GRAPHIC] [TIFF OMITTED] T2305.183
    
    [GRAPHIC] [TIFF OMITTED] T2305.184
    
                                    

</pre></body></html>
